           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


    INDIRECT COSTS CLAIMED BY
    THE CALIFORNIA DISABILITY
     DETERMINATION SERVICES

   November 2010   A-09-10-11079




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      November 16, 2010                                                              Refer To:

To:        Peter D. Spencer
           Regional Commissioner
            San Francisco

From:      Inspector General

Subject:   Indirect Costs Claimed by the California Disability Determination Services
           (A-09-10-11079)


           OBJECTIVE
           Our objective was to determine whether the indirect costs claimed by the California
           Disability Determination Services (CA-DDS) were allowable and properly allocated.

           BACKGROUND
           The Disability Insurance (DI) program was established in 1954 under Title II of the
           Social Security Act (Act). The DI program provides benefits to wage earners and their
           families in the event the wage earner becomes disabled. In 1972, Congress enacted
           the Supplemental Security Income (SSI) program under Title XVI of the Act. The SSI
           program provides benefits to financially needy individuals who are aged, blind, or
           disabled.

           The Social Security Administration (SSA) is responsible for implementing policies
           for the development of disability claims under the DI and SSI programs. Disability
           determinations under both DI and SSI are performed by disability determination
           services (DDS) in each State, or other responsible jurisdiction, in accordance with
           Federal law and underlying regulations. 1 In carrying out its obligation, each DDS is
           responsible for determining claimants’ disabilities and ensuring adequate evidence is
           available to support its determinations.




           1
               42 U.S.C. § 421; 20 C.F.R. part 404, subpart Q, and part 416, subpart J.
Page 2 – Peter D. Spencer

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. 2 Allowable expenditures include both direct and indirect costs. 3
At the end of each quarter of the fiscal year (FY), each DDS submits a Form SSA-4513,
State Agency Report of Obligations for SSA Disability Programs, to account for program
disbursements and unliquidated obligations.

CA-DDS is a component within the California Department of Social Services (DSS),
Disability Determination Services Division. As of September 30, 2009, DSS had
reported total expenditures of $572.9 million for FYs 2007 through 2009, including
$333 million in personnel costs, $135.6 million in medical costs, $45.3 million in
non-personnel costs, and $59 million in indirect costs. The following chart provides
an overview of the organizational structure of DSS.



                         California Department of Social Services
                                                                             Director

                                               Local Government and                           Public Affairs and
                                                Community Relations                          Outreach Programs

                                                Office of Legislation                    Program and Organizational
                                                                                         Performance Management

                                                  Special Assistant
                                                  to the Directorate


                          Chief Deputy Director, Adult and                                             Chief Deputy Director, Administration
                                Children’s Programs                                                      and Community Care Licensing

           Children and Family                    Adult Programs Division                 Administration Division                     Community Care
            Services Division                                                                                                         Licensing Division

         Welfare to Work Division                 Disability Determination                 Information Systems                          Legal Division
                                                     Service Division                            Division

                                                                                           Human Rights and                        State Hearings Division
                                                                                        Community Services Division




2
    42 U.S.C. § 421; 20 C.F.R. §§ 404.1626 and 416.1026.
3
  Direct costs can be identified specifically with a particular cost objective (Office of Management
and Budget [OMB] Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A, § E.1). Indirect costs arise from activities common to multiple programs but not readily
assignable to these programs without effort disproportionate to the results achieved (OMB Circular A-87,
Attachment A, § F.1).
Page 3 – Peter D. Spencer

DSS procedures require that components charge costs directly to the benefiting
programs whenever possible. 4 Indirect cost pools are used when activities benefit
multiple program areas or the entire department. The departmental indirect cost pool is
designed to accumulate the costs of activities that benefit all programs within DSS and
allocate such costs reasonably and equitably. The statewide indirect cost pool is used
to allocate an equitable share of statewide costs to the Federal programs that benefit
from these services.

In general, indirect costs are allocated from the departmental indirect cost pool to
all programs administered by DSS in relation to the total salaries charged to each
program. 5 Each month, DSS allocates indirect costs to the benefiting programs based
on the ratio of salaries charged to each program divided by the salaries charged to
all programs (referred to as the cost allocation base). Salary costs are charged to
programs based on time reporting by employees within each organizational component.

In a prior audit, 6 we found that DSS had charged SSA for indirect costs that did not
benefit its programs. This occurred, in part, because of incorrect time reporting by DSS
employees and inadequate methods for allocating indirect costs. SSA and DSS agreed
with our findings and recommendations. Specifically, DSS refunded the unallowable
costs to SSA and created a special administrative indirect cost pool to accumulate costs
that benefit non-SSA programs. However, in July 2002, DSS eliminated the special
administrative indirect cost pool.

RESULTS OF REVIEW
Our review disclosed that DSS incorrectly charged indirect costs to SSA’s programs.
This occurred because DSS (1) charged the costs of activities that did not benefit
SSA’s programs to the departmental indirect cost pool; and (2) used an incorrect cost
allocation base to distribute departmental and statewide indirect costs. As a result,
SSA reimbursed DSS for $8,128,431 in unallowable costs for FYs 2002 through 2009
(see Appendix B). 7 Specifically, we found

•    $6,049,557 in indirect costs from the Information Systems Division did not benefit
     SSA’s programs;




4
    DSS, Administrative Manual, 9-200, January 2007.
5
    DSS, Cost Allocation Plans for Direct and Indirect Costs, State FYs 2006 through 2009.
6
  SSA, OIG, Audit of Administrative Costs at the California Disability Determination Services
(A-09-97-51006), December 1998.
7
  Although our review initially focused on FYs 2007 through 2009, we expanded the audit period to
include the unallowable indirect costs since FY 2002 when the special administrative indirect cost pool
was eliminated.
Page 4 – Peter D. Spencer

•     $1,293,632 in indirect costs from the Director’s Office did not benefit SSA’s
      programs; and

•     $785,242 in unallowable departmental and statewide indirect costs was allocated to
      SSA’s programs.

IMPROPER CHARGES TO DEPARTMENTAL INDIRECT COST POOL

DSS charged the costs of activities that did not benefit SSA’s programs to the
departmental indirect cost pool. This occurred because DSS eliminated the special
administrative indirect cost pool and did not ensure its employees properly reported
their time charges. As a result, SSA reimbursed DSS for $7,343,189 in unallowable
costs for FYs 2002 through 2009. This consisted of (1) $6,049,557 from the Information
Systems Division and (2) $1,293,632 from the Director’s Office.

Federal cost standards state that expenditures may be allocated to a particular program
if the goods or services are charged in accordance with the relative benefits received. 8
These standards also state that indirect cost pools should be distributed to benefiting
programs on bases that will produce an equitable result in consideration of relative
benefits derived. 9

We reported this condition in our 1998 audit report. 10 In its response to our prior report,
DSS agreed with our findings and refunded $3.6 million in indirect costs to SSA.
Specifically, DSS created a special administrative indirect cost pool to accumulate the
costs of activities that benefit only non-SSA programs. The special administrative
indirect cost pool was limited to activities within the Administration and Information
Systems Division that benefited all programs except SSA's. However, in July 2002,
DSS eliminated the special administrative indirect cost pool.

During our review, we found a number of components in the Information
Systems Division and Director’s Office had charged the costs of their activities to the
departmental indirect cost pool after the special administrative indirect cost pool was
eliminated. This occurred even though these components’ activities did not benefit
SSA’s programs. Since the departmental indirect cost pool is allocated to both SSA
and non-SSA programs, SSA was improperly charged a portion of these costs.




8
     OMB Circular A-87, Attachment A, § C.3.a.
9
     OMB Circular A-87, Attachment A § F.1.
10
     See Footnote 6.
Page 5 – Peter D. Spencer

Information Systems Division

The Information Systems Division develops, implements, and maintains information
systems that support DSS programs. DSS charged $6,049,557 in unallowable indirect
costs from the Information Systems Division to SSA’s programs for FYs 2002 through
2009. These costs were charged by the (1) Customer Support Bureau; (2) Network
Operations Bureau; (3) Operations and Management Branch; (4) Children and Family
Services Division (CFSD), Executive Office, Administration, and State Hearings Division
(SHD) Support Bureau; (5) Technical Services Branch; and (6) Deputy Director,
Information Systems Division.

    Customer Support Bureau – This Bureau provides personal computing support
and help desk services. Beginning in May 2002, the Customer Support Bureau charged
100 percent of its costs to the departmental indirect cost pool, which is allocated to
all programs, including SSA’s programs. We determined the Bureau provided no
benefit to SSA’s programs. DSS staff agreed with our determination. As a result, SSA
reimbursed DSS for $2,965,833 in unallowable indirect costs for FYs 2002 through
2009. We also reported this condition in our 1998 audit that resulted in DSS’ refunding
the unallowable indirect costs to SSA.

    Network Operations Bureau – This Bureau plans, manages, and operates the wide
and local area networking infrastructure for DSS. We determined the Bureau performed
activities that benefited all programs except SSA’s. DSS staff agreed with our
determination. However, DSS incorrectly charged the costs of the Network Operations
Bureau to the departmental indirect cost pool. As a result, SSA reimbursed DSS for
$1,916,812 in unallowable indirect costs for FYs 2002 through 2009. We also reported
this condition in our 1998 audit, which resulted in DSS refunding the unallowable
indirect costs to SSA.

    Operations and Management Branch – This Branch manages and operates the
information technology (IT) networking infrastructure for DSS. It consists of the
Customer Support, Network Operations, and Onsite and System Support Bureaus. 11
The expenditures from the Branch are allocated to the benefiting programs based on
the time reporting of its Bureaus. Since the Customer Support and Network Operations
Bureaus improperly charged their costs to the departmental indirect cost pool, the
expenditures from the Branch were also incorrectly charged to the cost pool. As a
result, DSS improperly allocated $211,699 in indirect costs from the Operations and
Management Branch to SSA’s programs for FYs 2002 through 2009.




11
   The activities of the Onsite and System Support Bureau are charged directly to SSA. The Bureau
performs the same functions for SSA that the Customer Support and Network Operations Bureaus
perform for the rest of DSS.
Page 6 – Peter D. Spencer

   CFSD, Executive Office, Administration, and SHD Support Bureau – This Bureau
supports the mainframe applications for three program divisions (CFSD, Administration
Division, and SHD) and the Executive Office. We determined the Bureau did not
perform activities that benefited SSA’s programs. DSS staff agreed with our
determination. Nevertheless, through the departmental indirect cost pool, DSS
improperly charged SSA for a portion of these costs. As a result, SSA reimbursed
DSS for $542,512 in unallowable indirect costs for FYs 2002 through 2009.

   Technical Services Branch – This Branch develops and maintains automated
systems, conducts activities to streamline program operations, and prepares planning
and procurement documents for approval and funding of IT projects. It consists of
four bureaus: Community Care Licensing/Legal Support; CFSD, Executive Office,
Administration, and SHD Support; Welfare to Work Support; and Internet Solutions.
The expenditures from the Branch are allocated to the benefiting programs based on
the time reporting of its bureaus. Since the CFSD, Executive Office, Administration,
and SHD Support Bureau improperly charged its costs to the departmental indirect cost
pool, the expenditures from the Branch were also incorrectly charged to the cost pool.
As a result, DSS improperly allocated $23,891 in indirect costs from the Technical
Services Branch to SSA’s programs for FYs 2002 through 2009.

    Deputy Director, Information Systems Division – The Deputy Director oversees and
manages all major statewide automation projects and IT infrastructure. The costs of the
activities performed by the Deputy Director are allocated to the benefiting programs
based on the time reporting of its components. This included the Customer Support;
Network Operations; and CFSD, Executive Office, Administration, and SHD Support
Bureaus; as well as the Operations and Management and Technical Services Branches.
Since these components improperly charged their costs to the departmental indirect
cost pool, the expenditures for the Deputy Director were also incorrectly charged to the
cost pool. As a result, DSS improperly allocated $388,810 in indirect costs from the
Deputy Director for the Information Systems Division to SSA’s programs for FYs 2002
through 2009.

Director's Office

The Director’s Office provides executive direction for DSS and sets administrative policy
for the welfare, community care licensing, disability evaluation, and other social service
programs. DSS charged $1,293,632 in unallowable indirect costs from the Director’s
Office to SSA’s programs for FYs 2002 through 2009. These costs were charged by
the (1) Deputy Director, Public Affairs and Outreach Programs, and (2) Deputy Director,
Local Government and Community Relations.
Page 7 – Peter D. Spencer

    Deputy Director, Public Affairs and Outreach Programs – The Deputy Director
advises and assists the Director in the overall planning, development, and direction of
public information and educational activities related to DSS programs. This component
was previously known as the Public Inquiry and Response Unit. Although the Deputy
Director’s activities primarily benefited non-SSA programs, DSS incorrectly charged
the expenditures from Public Affairs and Outreach Programs to the departmental
indirect cost pool. As a result, SSA reimbursed DSS for $973,075 in unallowable
indirect costs from the Deputy Director for Public Affairs and Outreach Programs for
FYs 2002 through 2009. We also reported this condition in our 1998 audit, which
resulted in DSS’ refunding the unallowable indirect costs to SSA.

    Deputy Director, Local Government and Community Relations – The Deputy
Director acts as a liaison to county welfare directors, chief probation officers, community
groups, and other local officials. DSS charged 100 percent of the expenditures from
Local Government and Community Relations to the departmental indirect cost pool.
However, the Deputy Director generally performed activities that benefited all programs
administered by DSS except for SSA’s. As a result, SSA reimbursed DSS for
$320,557 in unallowable indirect costs from the Deputy Director for Local Government
and Community Relations for FYs 2002 through 2009. 12 We also reported this condition
in our 1998 audit, which resulted in DSS’ refunding the unallowable indirect costs to
SSA.

INCORRECT COST ALLOCATION BASE

DSS used an incorrect cost allocation base to distribute departmental and statewide
indirect costs for FYs 2002 through 2009. This occurred because some DSS
components improperly charged the costs of activities that did not benefit SSA’s
programs to the departmental indirect cost pool. As a result, DSS allocated
$785,242 in unallowable indirect costs to SSA’s programs. This consisted of
$426,861 in departmental indirect costs and $358,381 in statewide indirect costs.

Departmental indirect costs are expenditures for services that benefit all departments
in DSS. Statewide indirect costs are expenditures for services that benefit all
departments in the State, including accounting, auditing, budgeting, and payroll. Each
month, DSS allocates departmental and statewide indirect costs to the benefiting
programs based on the ratio of salaries charged to each program divided by the salaries
charged to all programs (referred to as the cost allocation base). Salary costs are
charged to programs based on time reporting by employees in each organizational
component.




12
   This represents costs charged by the Deputy Director for Local Government and Community Relations
from March 2007 to September 2009 and the Assistant to the Director for Local Government from
October 2001 to February 2007.
Page 8 – Peter D. Spencer

As previously noted in this report, DSS incorrectly charged the costs of activities
performed by various components in the Information Systems Division and Director’s
Office to the departmental indirect cost pool. 13 Had these components properly charged
their costs to the benefiting programs, their salaries would have been included in the
cost allocation base. However, since the cost allocation base was understated, we
determined the departmental and statewide indirect costs allocated to SSA were
overstated by 0.27 percent for FYs 2002 through 2009. As a result, SSA reimbursed
DSS for $785,242 in unallowable departmental and statewide indirect costs.

For example, in October 2008, the total salaries for DSS were $18,687,693, of which
CA-DDS’ share was $6,984,239 (37.37 percent). This allocation percentage was used
to distribute departmental and statewide indirect costs. However, since several DSS
components improperly charged the costs of their activities to the departmental indirect
cost pool, their salaries ($145,228) were excluded from the cost allocation base. The
total salaries for DSS should have been $18,832,921, thereby reducing CA-DDS’ share
to 37.09 percent. As a result, the allocation percentage was overstated by 0.28 percent
that year. Based on departmental and statewide indirect costs of $1,916,756 and
$1,735,527, respectively, DSS improperly allocated $5,367 and $4,859 to SSA’s
programs.

CONCLUSION AND RECOMMENDATIONS
Our review disclosed that DSS incorrectly charged indirect costs to SSA’s programs.
This occurred because DSS (1) charged the costs of activities that did not benefit
SSA’s programs to the departmental indirect cost pool; and (2) used an incorrect cost
allocation base to distribute departmental and statewide indirect costs. As a result,
SSA reimbursed DSS for $8,128,431 in unallowable costs for FYs 2002 through 2009
(see Appendix B). 14

Therefore, we recommend that SSA direct DSS to:

1. Refund $8,128,431 in indirect costs that did not benefit SSA’s programs for
   FYs 2002 through 2009.

2. Identify and refund any unallowable indirect costs for FY 2010 to the present.

3. Improve controls to ensure costs are properly charged to the departmental indirect
   cost pool.


13
   These components included the (1) Customer Support Bureau; (2) Network Operations Bureau;
(3) CFSD, Executive Office, Administration, and SHD Support Bureau; (4) Deputy Director for Public
Affairs and Outreach Programs; and (5) Deputy Director for Local Government and Community Relations.
14
   Although our review initially focused on FYs 2007 through 2009, we expanded the audit period to
include the unallowable indirect costs since FY 2002 when the special administrative indirect cost pool
was eliminated.
Page 9 – Peter D. Spencer

4. Provide training to DSS staff in time reporting policies and procedures.

5. Review the departmental indirect cost pool for inappropriate charges on a periodic
   basis.

AGENCY COMMENTS
SSA and DSS generally agreed with our recommendations. In its response, DSS
requested the repayment amount be limited to the five State FYs for which funding is
still available. See Appendices D and E for the full text of SSA’s and DSS’ comments.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Summary of Questioned Costs

APPENDIX C – Scope and Methodology

APPENDIX D – Social Security Administration’s Comments

APPENDIX E – California Department of Social Services’ Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
Act        Social Security Act
C.F.R.     Code of Federal Regulations
CA-DDS     California Disability Determination Services
CFSD       Children and Family Services Division
DDS        Disability Determination Services
DI         Disability Insurance
DSS        Department of Social Services
FY         Fiscal Year
IT         Information Technology
OIG        Office of the Inspector General
OMB        Office of Management and Budget
SHD        State Hearings Division
SSA        Social Security Administration
SSA-4513   State Agency Report of Obligations for SSA Disability Programs
SSI        Supplemental Security Income
U.S.C.     United States Code
                                                                  Appendix B

Summary of Questioned Costs

              California Disability Determination Services
                     Federal Fiscal Years 2002 Through 2009

                            Description                             Amount

 Improper Charges to Departmental Indirect Cost Pool

 Information Systems Division

    Customer Support Bureau                                        $2,965,833
    Network Operations Bureau                                       1,916,812
    Operations and Management Branch                                  211,699
    Children and Family Services Division, Executive Office,
     Administration, and State Hearings Division Support Bureau       542,512
    Technical Services Branch                                         23,891
    Deputy Director, Information Systems Division                    388,810

 Director’s Office

    Deputy Director, Public Affairs and Outreach                     973,075
    Deputy Director, Local Government and Community Relations        320,557

 Incorrect Cost Allocation Base

    Departmental Indirect Costs                                      426,861
    Statewide Indirect Costs                                         358,381

 Total                                                              $8,128,431
                                                                        Appendix C

Scope and Methodology
We reviewed the indirect costs reported by the California Disability Determination
Services (CA-DDS) on its State Agency Report of Obligations for SSA Disability
Programs (Form SSA-4513) for Federal Fiscal Years (FY) 2007 through 2009.
However, our findings affected the costs claimed since the special administrative
indirect cost pool was eliminated in FY 2002. Therefore, we expanded the audit
period to develop these issues.

To accomplish our objective, we:

•   Reviewed Office of Management and Budget Circular A-87, Cost Principles for
    State, Local, and Indian Tribal Governments; Code of Federal Regulations; and
    the Social Security Administration’s (SSA) Program Operations Manual System.

•   Reviewed the California Department of Social Services (DSS) Cost Allocation Plans
    and policies and procedures related to indirect costs.

•   Interviewed employees from DSS, CA-DDS, and the SSA Regional Office.

•   Verified the reconciliation of State accounting records to the indirect costs reported
    by DSS on its Form SSA-4513 for FYs 2007 through 2009.

•   Examined the allowability of indirect costs claimed by DSS on its Form SSA-4513
    FYs 2007 through 2009.

We determined the computer-processed data were sufficiently reliable for our intended
use. We conducted tests to determine the completeness and accuracy of the data.
These tests allowed us to assess the reliability of the data and achieve our audit
objective.

We performed audit work at CA-DDS and DSS in Sacramento, California. We also
performed audit work at the SSA Regional Office in Richmond, California. Our fieldwork
was conducted between December 2009 and May 2010.

We conducted our audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.
                                                                            Appendix D
Social Security Administration’s Comments

August 25, 2010

TO:         Office of Inspector General (OIG)

FROM:       Deputy Commissioner for Operations (DCO)

SUBJECT: DCO REPLY: Request for Draft Report Comments - “Indirect Costs claimed by
the California Disability Determination Services,” audit # 22010020 (Kimberly Berger’s email,
7/29/10)


Thank you for the opportunity to review OIG’s draft audit report on Indirect Costs Claimed
by the California DDS. We have reviewed the draft report and agree with OIG’s findings. We
are deferring a final position on the actual money amounts that should be repaid by California
until we receive both the final OIG report and the State’s response.

We appreciate the work performed by the OIG staff in the San Francisco Region.

If your staff have any questions, they may call Gus Villalobos at (510) 970-8297 or Jen
Mitchell at (510) 970-8309, both in the San Francisco Center for Disability.


Roger McDonnell for Mary Glenn-Croft
                                     Appendix E
California Department of Social Services’
Comments
Mr. Steven L. Schaeffer
Assistant Inspector General
Social Security Office of Audits
6401 Security Boulevard, 3 ME #2
Baltimore, MD 21235

Dear Mr. Schaeffer:

This is in response to your July 22, 2010 letter in which you provided the California Department of
Social Services (CDSS) with the Office of Inspector General’s (OIG) draft report entitled “Indirect
Costs Claimed by the California Disability Determination Services (A-09-10-11079)”.

The CDSS has reviewed the draft report and is providing you with our comments and concerns as
it relates to the OIG’s findings. For the most part, we agree with the OIG’s findings. However, we
also believe that some of the CDSS employees in these bureaus could have properly claimed their
services and time as indirect costs to the Social Security Administration’s (SSA) programs from
2002-2009. The Department does not have sufficient documentation to retroactively amend
employee timesheets to accurately capture these costs. Additionally, the extension of the audit
period to eight fiscal years rather than the two years in the original audit notification letter is
problematic. Retroactively applying adjustments resulting from the findings in this report would
impact multiple state and federal programs for which funding is no longer available. We
recommend that the audit period be limited to the years for which appropriations are still available.
Repayment for these findings is contingent upon CDSS seeking additional budget authority. The
enclosed response addresses the recommendations made in the report, as well as each specific
finding. This was done to provide additional details on the activities performed by CDSS
employees that benefit SSA.

I appreciate the opportunity to provide comments and express concerns with your draft report of
findings and hope that we can mutually agree to their resolution.

If you have any questions, please contact me at (916) 657-2598, or Cynthia Fair, Chief, Audits
Bureau, at (916) 651-9923.

Sincerely,



JOHN A. WAGNER
Director

Enclosure


                                                 E-1
                       Response to Recommendations

The California Department of Social Services (CDSS) appreciates the opportunity to
respond to the Social Security Administration (SSA) Office of Inspector General (OIG)
draft report entitled “Indirect Costs Claimed by the California Disability Determination
Services (A-09-10-11079). CDSS’ responses to the five recommendations are shown
below.

Recommendation #1
Refund $8,128,431 in indirect costs that did not benefit SSA’s programs for fiscal years
2002 through 2009.

CDSS Response: CDSS partially agrees with this recommendation.
The CDSS partially agrees, however the SSA-OIG review spans eight state fiscal years.
Any adjustments resulting from these findings would impact multiple state and federal
programs for which funding is no longer available. The CDSS is recommending that the
audit period be limited to the five state fiscal years for which funds are available.


Recommendation #2
Identify and refund any unallowable indirect costs for fiscal year (FY) 2010 to the
present.

CDSS Response: CDSS agrees with this recommendation.
The CDSS agrees to ensure that prospectively the time certifications in these bureaus
are revised to no longer use the Departmental overhead code.


Recommendation #3
Improve controls to ensure costs are properly charged to the department indirect cost
pool.

CDSS Response: CDSS agrees with this recommendation.
The CDSS has implemented the following corrective action plans to address this
recommendation:
• In August 2010, CDSS Fiscal Systems Bureau (FSB) worked with the Information
    Systems Division and Director’s Office to correctly charge staff time to the
    appropriate Program Cost Account (PCA) codes representing the benefiting
    programs beginning with the month of July 2010; and
• In August 2010, CDSS FSB began reviewing, on a monthly/quarterly basis, all
    organization time summaries that charge the Departmental indirect cost pool
    PCA for appropriateness.




                                           E-2
Recommendation #4
Provide training to DSS staff in time reporting policies and procedures.

CDSS Response: CDSS agrees with this recommendation.
The CDSS will develop and provide training to educate staff on correct time reporting.
CDSS will take the following actions to implement the training by January 2011:
• Issue a Supervisors and Above Memo with information and contacts.
• Develop a Webinar training session.
• Document all procedures and make readily available for all staff to access.
• Update the power point presentation that is currently available on the CDSS
   intranet.


Recommendation #5
Review the departmental indirect cost pool for inappropriate charges on a periodic basis.

CDSS Response: CDSS agrees with this recommendation.
The CDSS will develop an automated query process to help detect inappropriate use of
the CDSS indirect cost pool PCA by October 2010.




The CDSS responses to the associated nine findings are provided in the attached
document.




                                           E-3
                     Response to Associated Findings

Improper Charges to Departmental Indirect Cost Pool
Information Systems Division

Finding #1: Customer Support Bureau
This Bureau provides personal computing support and help desk services. Beginning in
May 2002, the Customer Support Bureau charged 100 percent of its costs to the
departmental indirect cost pool, which is allocated to all programs, including SSA’s
programs. We determined the Bureau provided no benefit to SSA’s programs. DSS
staff agreed with our determination. As a result, SSA reimbursed DSS for $2,965,833 in
unallowable indirect costs for FYs 2002 through 2009. We also reported this condition
in our 1998 audit that resulted in DSS’ refunding the unallowable indirect costs to SSA.

CDSS Response: CDSS agrees with this finding.
While the Customer Support Bureau (CSB) does not directly support the staff working
on the federal network they do provide Help Desk Services to all CDSS staff on the
Microsoft Office Suite and other common applications. The staff working on the federal
network also access the Internet through network connections at the Office of
Technology Services. When the connection goes down or there are problems with
accessing specific sites on the Internet, the CSB Help Desk works to resolve the issues.
However, these activities are a small part of the CSB’s principle workload and the
Department does not have sufficient documentation to retroactively amend employee
timesheets to accurately capture these costs.


Finding #2: Network Operations Bureau
This Bureau plans, manages, and operates the wide and local area networking
infrastructure for DSS. We determined the Bureau performed activities that benefited all
programs except SSA’s. DSS staff agreed with our determination. However, DSS
incorrectly charged the costs of the Network Operations Bureau to the departmental
indirect cost pool. As a result, SSA reimbursed DSS for $1,916,812 in unallowable
indirect costs for FYs 2002 through 2009. We also reported this condition in our 1998
audit that resulted in DSS’ refunding the unallowable indirect costs to SSA.

CDSS Response: CDSS agrees with this finding.
The Network Operations Bureau (NOB) supports the CDSS staff working on the federal
network by troubleshooting firewall and Internet issues which can affect access to
federal systems. The NOB also dedicates a Senior Information Systems Analyst and
Staff Information Systems Analyst (primary and backup) to oversee all of the new
federal production branches in terms of specifying and ensuring electrical and cabling in
the data centers and workspace meet federal guidelines. These positions also design
the new data centers, work with business services to obtain necessary state approvals,
and assist in troubleshooting connectivity issues in the federal production branches.
However, these activities are a small part of the CSB’s principle workload and the


                                           E-4
Department does not have sufficient documentation to retroactively amend employee
timesheets to accurately capture these costs.


Finding #3: Operations and Management Branch
This Branch manages and operates the information technology (IT) networking
infrastructure for DSS. It consists of the Customer Support, Network Operations, and
Onsite and System Support Bureaus. The expenditures from the Branch are allocated
to the benefiting programs based on the time reporting of its Bureaus. Since the
Customer Support and Network Operations Bureaus improperly charged their costs to
the departmental indirect cost pool, the expenditures from the Branch were also
incorrectly charged to the cost pool. As a result, DSS improperly allocated $211,699 in
indirect costs from the Operations and Management Branch to SSA’s programs for FYs
2002 through 2009.

CDSS Response: CDSS agrees with this finding.
Based on the responses described in Findings #1 and #2, the Department agrees with
the SSA-OIG review findings.


Finding #4: CFSD, Executive Office, Administration, and SHD Support Bureau
This Bureau supports the mainframe applications for three program divisions (CFSD,
Administration Division, and SHD) and the Executive Office. We determined the Bureau
did not perform activities that benefited SSA’s programs. DSS staff agreed with our
determination. Nevertheless, through the departmental indirect cost pool, DSS
improperly charged SSA for a portion of these costs. As a result, SSA reimbursed DSS
for $542,512 in unallowable indirect costs for FYs 2002 through 2009.

CDSS Response: CDSS agrees with this finding.
This Bureau provides mainframe application support for three divisions within the
Department and support for multiple enterprise systems that are utilized by all divisions,
including the Disability Determination Service Division (DDSD) within the Department.
These systems provide information and/or track the various assets utilized by DDSD.
The systems are:
• Property database
• Hardware database
• Telecomm database
• Budget Information System
• Furniture database
• Warehouse Forms/Management
• Purchasing database

However, the Department does not have sufficient documentation to retroactively
amend employee timesheets to accurately capture these costs.




                                           E-5
Finding #5: Technical Services Branch
This Branch develops and maintains automated systems, conducts activities to
streamline program operations, and prepares planning and procurement documents for
approval and funding of IT projects. It consists of four bureaus: Community Care
Licensing/Legal Support; CFSD, Executive Office, Administration, and SHD Support;
Welfare to Work Support; and Internet Solutions. The expenditures from the Branch are
allocated to the benefiting programs based on the time reporting of its bureaus. Since
the CFSD, Executive Office, Administration, and SHD Support Bureau improperly
charged its costs to the departmental indirect cost pool, the expenditures from the
Branch were also incorrectly charged to the cost pool.

CDSS Response: CDSS agrees with this finding.
Based on the response described in Finding #4, the Department agrees with the SSA-
OIG review findings.


Finding #6: Deputy Director, Information Systems Division
The Deputy Director oversees and manages all major state-wide automation projects
and IT infrastructure. The costs of the activities performed by the Deputy Director are
allocated to the benefiting programs based on the time reporting of its components.
This included the Customer Support; Network Operations; and CFSD, Executive Office,
Administration, and SHD Support Bureaus as well as the Operations and Management;
and Technical Services Branches. Since these components improperly charged their
costs to the departmental indirect cost pool, the expenditures for the Deputy Director
were also incorrectly charged to the cost pool. As a result, DSS improperly allocated
$388,810 in indirect costs from the Deputy Director for the Information Systems Division
to SSA’s programs for FYs 2002 through 2009.

CDSS Response: CDSS agrees with this finding.
Based on the responses described in Findings #1 through #5, the Department agrees
with the SSA-OIG review findings.


Director’s Office

Finding #7: Deputy Director, Public Affairs and Outreach Programs
The Deputy Director advises and assists the Director in the overall planning,
development, and direction of public information and educational activities related to
DSS programs. This component was previously known as the Public Inquiry and
Response Unit. Although the Deputy Director’s activities primarily benefited non-SSA
programs, DSS incorrectly charged the expenditures from Public Affairs and Outreach
Programs to the departmental indirect cost pool. As a result, SSA reimbursed DSS for
$973,075 in unallowable indirect costs from the Deputy Director for Public Affairs and
Outreach Programs for FYs 2002 through 2009. We also reported this condition in our
1998 audit that resulted in DSS’ refunding the unallowable indirect costs to SSA.




                                          E-6
CDSS Response: CDSS agrees with this finding.


Finding #8: Deputy Director, Local Government and Community Relations
The Deputy Director acts as a liaison to county welfare directors, chief probation
officers, community groups, and other local officials. DSS charged 100 percent of the
expenditures from Local Government and Community Relations to the departmental
indirect cost pool. However, the Deputy Director generally performed activities that
benefited all programs administered by DSS except for SSA’s. As a result, SSA
reimbursed DSS for $320,557 in unallowable indirect costs from the Deputy Director for
Local Government and Community Relations for FYs 2002 through 2009. We also
reported this condition in our 1998 audit that resulted in DSS’ refunding the unallowable
indirect costs to SSA.

CDSS Response: CDSS agrees with this finding.


Administration Division

Finding #9: Indirect Cost Allocation Base
DSS used an incorrect cost allocation base to distribute departmental and state-wide
indirect costs for FYs 2002-2009. This occurred because some DSS components
improperly charged the costs of activities that did not benefit SSA’s programs to the
departmental indirect cost pool. As a result, DSS allocated $785,242 in allowable
indirect costs to SSA’s programs. This consisted of $426,861 in departmental indirect
costs and $358,381 in state-wide indirect costs.

CDSS Response: CDSS agrees with this finding.




                                           E-7
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgments

In addition to those named above:

   Tim Meinholz, Senior Auditor

   Jim Sippel, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-10-11079.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
